<html>
<title> - [H.A.S.C. No. 115-40] THREE DECADES LATER: A REVIEW AND ASSESSMENT OF OUR SPECIAL OPERATIONS FORCES 30 YEARS AFTER THE CREATION OF U.S. SPECIAL OPERATIONS COMMAND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                                     
 
                         [H.A.S.C. No. 115-40]

                   THREE DECADES LATER: A REVIEW AND

                       ASSESSMENT OF OUR SPECIAL

                    OPERATIONS FORCES 30 YEARS AFTER

            THE CREATION OF U.S. SPECIAL OPERATIONS COMMAND

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 2, 2017

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-833                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     


                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
TRENT FRANKS, Arizona                BETO O'ROURKE, Texas
DOUG LAMBORN, Colorado               STEPHANIE N. MURPHY, Florida
AUSTIN SCOTT, Georgia
                Pete Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Thomas, GEN Raymond A., USA, Commander, U.S. Special Operations 
  Command........................................................     5
Whelan, Theresa, Principal Deputy Assistant Secretary of Defense 
  for Special Operations/Low-Intensity Conflict..................     3

                                APPENDIX

Prepared Statements:

    Stefanik, Hon. Elise M.......................................    25
    Thomas, GEN Raymond A........................................    34
    Whelan, Theresa..............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Wilson...................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    62
    Ms. Stefanik.................................................    61
    
THREE DECADES LATER: A REVIEW AND ASSESSMENT OF OUR SPECIAL OPERATIONS 
 FORCES 30 YEARS AFTER THE CREATION OF U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                              Washington, DC, Tuesday, May 2, 2017.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. I call this hearing of the Emerging Threats 
and Capabilities Subcommittee of the House Armed Services 
Committee to order. I am pleased to welcome everyone this 
morning to a very important hearing entitled, ``Three Decades 
Later: A Review and Assessment of U.S. Special Operation Forces 
30 Years After the Creation of U.S. Special Operations 
Command.''
    This year marks the 30-year historical point for our 
special operations forces [SOF] when Congress added an 
amendment to the Goldwater-Nichols reform legislation that 
created the United States Special Operations Command [USSOCOM]. 
Since that time, this force has been preserving strategic 
options for our Nation, and their track record is second to 
none.
    During my time in Congress and as chair of this 
subcommittee, I have traveled to many war zones and embassies 
and seen this force in action. I can say from firsthand 
experience that I am continually impressed and humbled by the 
men and women conducting these important missions, and our 
Nation can truly be proud of their accomplishments.
    And although this hearing offers an opportunity for 
reflection, in some ways the threats that special operations 
forces respond to are as timeless as warfare itself and have 
existed in the form of irregular and asymmetric challenges from 
state and nonstate actors alike. These challenges, and indeed 
those of the past 16 years since 9/11, have demanded a heavy 
focus on counterterrorism and direct action skills for this 
force, but how much that experience will shape our thinking 
about future conflicts remains to be seen. And despite this 
constant theme, the world at large continues to change, and we 
must not let today's war overshadow the need to prepare for the 
wars of tomorrow.
    While the global CT [counterterrorism] fight continues, 
adversarial advances in synthetic biology, quantum computing, 
information warfare, and, indeed, the proliferation of more 
than 10 trillion sensors and devices connected to the internet 
presents risks for tomorrow. However, if managed right, these 
risks become great opportunities for this highly capable force.
    In thinking about the years ahead, we must ask hard 
questions after nearly 16 years of constant war, including: 
What parts of this force are broken and what needs to be 
repaired quickly? What adversarial nation-states are advancing 
faster and achieving a qualitative edge over our forces? And 
what must we do to ensure that our special operations forces 
are postured for the next 30 years to mitigate our most 
pressing national security concerns and to continue to preserve 
strategic options for our Nation?
    As in the past, Congress will play a major role by aligning 
resources and policy to keep special operations effective, 
silent, globally postured, and when necessary, absolutely 
lethal. To do that, we will need the help of our witnesses 
before us this morning: Ms. Theresa Whelan, Principal Deputy 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict [ASD(SO/LIC)], and General Raymond Thomas, 
Commander, U.S. Special Operations Command.
    It is worth noting that Ms. Whelan, although also 
performing the duties of Under Secretary of Defense for Policy, 
is appearing today before the committee in her capacity as 
Principal Deputy Assistant Secretary of Defense.
    I would like to turn now to my friend and ranking member, 
Mr. Jim Langevin from Rhode Island, for any comments he would 
like to make.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Chairwoman Stefanik.
    And thank you, Ms. Whelan and General Thomas, for being 
here today. I look forward to your testimony this morning. And, 
General, in particular, I want to thank you for your service to 
the Nation, and all the men and women who serve under your 
command.
    Despite not having a detailed budget request submitted by 
the administration, there are many issues regarding the command 
and our special operations forces to be discussed by the 
committee today. Approximately 30 years ago, Congress 
established SOCOM to ensure joint and ready special operations 
forces capable of defending U.S. national security interests.
    For the last decade and a half, we have relied heavily on 
SOF to perform activities in support of counterterrorism 
operations. However, we must keep in mind that SOF activities, 
such as unconventional warfare [UW], foreign internal defense, 
counter-messaging, and hostage rescue, remain equally important 
to countering aggression of other actors, including nation-
states.
    Despite drawdowns of conventional forces and overseas 
contingencies, the demand for SOF remains high across the 
combatant commands. SOF is still very much engaged in battle. 
Sadly, we lost three Army Special Forces in Afghanistan 
fighting ISIL [Islamic State of Iraq and the Levant] just in 
April. This high operation tempo has created stress on the 
force and has affected readiness. Precision and discrimination 
in use of SOF remain fundamental to not breaking the force.
    We must also ensure that SOF are employed under policies, 
guidance, and authorities conducive to achieving our broader 
national security goals and objectives set forth in clear 
strategies. This includes both in and outside areas of active 
hostilities in each theater, against each threat. This requires 
us to be mindful when considering or legislating operational 
authorities.
    SOCOM and the Assistant Secretary for Special Operations 
and Low-Intensity Conflict clearly have a lot on their plate. 
In addition, last year SOCOM was assigned the responsibility 
for synchronizing the countering weapons of mass destruction 
[CWMD] mission from Strategic Command [STRATCOM]. SOCOM has 
always been involved in CWMD and brings a depth of knowledge to 
employing a left-of-boom approach conducive to our strategy.
    The threats our Nation faces today are ever-evolving and 
complex and will continue to shape our special operations 
forces and policies for employment of those forces. I certainly 
look forward to hearing from our witnesses today on these 
topics.
    Again, I thank you for all the extraordinary work that you 
and the special operations forces perform on behalf of our 
Nation day in and day out in very dangerous areas, performing 
very dangerous missions, and we thank you all for your service.
    With that, I yield back the balance of my time.
    Ms. Stefanik. Thank you, Mr. Langevin.
    Immediately following this open hearing, the committee will 
reconvene upstairs in 2337 for a closed classified roundtable 
discussion with both of our witnesses.
    Before we begin, I remind our witnesses that your full 
written statements will be submitted for the record, and we ask 
that you summarize your comments in 5 minutes or less.
    Secretary Whelan, we will begin with you, and we look 
forward to your opening statement.

    STATEMENT OF THERESA WHELAN, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS/LOW-INTENSITY 
                            CONFLICT

    Ms. Whelan. Thank you. Chairwoman Stefanik, Congressman 
Langevin, and distinguished members of the committee, I am 
honored to appear before you today in my capacity as the 
Principal Deputy Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict. I am pleased to share 
this table with General Tony Thomas, who has served at the 
forefront of the special operations forces at all levels of 
command. Our entire SO/LIC team is proud to partner with him 
and his command in forging the future of DOD [Department of 
Defense] special operations.
    I would like to thank you and your predecessors for the 
foresight to create SO/LIC and SOCOM 30 years ago, and for your 
commitment to maintaining that vision over the last three 
decades. We are grateful for this committee's support for 
special operations, as evidenced by the resources, authorities, 
and depth of understanding you provide in your oversight. Our 
military is stronger and more capable due to your efforts.
    Today I will focus on three topics. First, winning the 
current fight and defeating emerging threats. Second, building 
on the foundations of section 922 ASD(SO/LIC) authorities. And 
third, continuing to hone the edge of SOF personnel and 
capabilities.
    SOF is a vanguard force in countering emerging threats at 
the leading edge of the modern security landscape. In the last 
15 years, we have encountered a networked enemy. We flattened 
our organizations and accelerated our targeting cycles and we 
built a network to defeat them. We now face advanced 
transregional threats that demand greater levels of 
coordination and collaboration, and we are redoubling our focus 
on building relationships with international and interagency 
partners.
    Today, SO/LIC provides oversight and advocacy for the 
special operations budget, which is approximately 1.8 percent 
of our defense budget in 2017, and we directly manage over $2 
billion in various budgets that support counterterrorism and 
counternarcotics efforts.
    The three-decades-long partnership between SOCOM and SO/LIC 
has generated a force capable of dealing with emerging threats, 
and a force that is able to translate those gains across the 
Department. We will win the fight against the VEOs [violent 
extremist organizations] and protect our citizens' vital 
interests, allies, and partners. This requires a long-term 
strategic approach that combats terrorists, disrupts terrorist 
networks, discredits extremist ideologies, and diminishes 
factors that contribute to recruitment and radicalization.
    Sustaining funding and flexible legislative authorities 
have been instrumental to these efforts. I want to thank the 
committee for establishing section 127e, formerly known as 
section 1208, as a permanent authority. The maturation of this 
program has provided our warfighters a powerful tool to employ 
to support our allies, attack our enemies, and protect our 
force, and is a great example of interagency synergy, enabled 
by strong congressional support and oversight.
    Congressional support for countering threat finance and 
transnational organized crime is also crucial to our overall 
efforts. Terrorists, insurgents, and other threat networks 
depend upon illicit revenue streams and criminal facilitators 
for logistic support, money laundering, and also obtaining 
weapons and fraudulent documents.
    Thank you also for codifying the responsibilities of 
ASD(SO/LIC)'s important oversight role comprised of the 
complementary tasks of monitoring and advocacy in the fiscal 
year 2017 NDAA [National Defense Authorization Act]. USSOCOM 
has made dramatic advances during wartime in response to urgent 
battlefield demands, gains that require an institutional 
foundation to endure.
    The service secretary-like authorities in section 922 serve 
as a strategic linchpin, ensuring that we lock in these hard-
won gains. These authorities empowered the Special Operations 
Policy Oversight Council, which we have used in the past year 
to resolve base infrastructure and casualty evacuation issues 
among USSOCOM and the services.
    Ultimately, these gains can be leveraged across the entire 
force with SOF best practices in technology and talent 
management serving as templates for the Department in 
addressing emerging challenges.
    A key part of SO/LIC's role is to advance the state of the 
art in concepts, technologies, and strategies for both humans 
and hardware. Our Combating Terrorism Technical Support Office 
[CTTSO] leads this effort within SO/LIC by developing cutting-
edge technologies for SOF, the interagency, and law 
enforcement.
    The SOF truths state that humans are more important than 
hardware. As we continue to provide agile and innovative 
capabilities, we must also continue to maintain and sustain an 
elite workforce suited to the unique and diverse demands of 
21st century warfare.
    For more than 30 years, SOF has remained at the leading 
edge of global megatrends. We have employed SOF in 
consequential battles and we have seen SOF diminish threats 
before they evolve. We take lessons from every operation, and 
those lessons have informed and fostered innovation through SOF 
and across the larger force and Department. We will continue to 
work closely with Congress to ensure that we have the right 
policy, agile authorities, and necessary resources to employ 
SOF effectively.
    I thank Congress for its continued support of our men and 
women in uniform and their families, and I look forward to your 
questions.
    [The prepared statement of Ms. Whelan can be found in the 
Appendix on page 27.]
    Ms. Stefanik. Thank you, Ms. Whelan.
    General Thomas.

   STATEMENT OF GEN RAYMOND A. THOMAS, USA, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    General Thomas. Chairwoman Stefanik, Ranking Member 
Langevin, and distinguished members of the committee, thank you 
for the opportunity to appear before you today. I am especially 
grateful to be here with Principal Deputy Assistant Secretary 
Whelan in a session dedicated exclusively to special 
operations, as it provides us the opportunity to discuss in 
detail the unique requirements, capabilities, and challenges 
associated with your United States Special Operations Command.
    This body legislated us into existence a little over 30 
years ago to act as a unique Department of Defense 
organization, a dual-headed service-like entity responsible for 
both the manning, training, and equipping of special operations 
forces, as well as a globally focused, functional combatant 
command.
    In fulfilling the first role, which continues to be our 
primary function, I believe we have consistently provided the 
world's best special operations forces to the geographic 
combatant commanders. However, it is in the second role, as a 
globally focused combatant command, where SOCOM has evolved the 
most.
    As we carry out both of these roles today, special 
operations forces are more relevant than ever to the current 
and enduring threats facing our Nation. We have been at the 
forefront of national security operations for the past three 
decades, to include continuous combat over the past 15\1/2\ 
years. This historic period has been the backdrop for some of 
our greatest successes as well as the source of our greatest 
challenge, which is the sustained readiness of this magnificent 
force.
    We are thankful for the resources you have provided not 
only to operate this force, but also to perform the critical 
sustainment efforts that underpin our most precious resource, 
our people.
    Last month was particularly difficult for USSOCOM, losing 
its 407th hero, Staff Sergeant De Alencar, in a firefight in 
Nangahar Province in Afghanistan while operating alongside his 
Afghan partners. Then, last week, we lost Ranger Sergeants 
Thomas and Rodgers, our 408th and 409th casualties, 
respectively. This comes on the heels of 16 other combat 
fatalities since I assumed command a year ago and is a stark 
reminder that we are a command at war, and will remain so for 
the foreseeable future.
    My current priorities for the command fall into three broad 
categories.
    First, we must win the current fight, which consists of 
carrying out assigned missions running the gamut from defeating 
Islamic extremism, both Sunni and Shia, to countering Russian 
aggression, to preparing for contingencies in Korea, as well as 
various security operations to defend the homeland.
    Second, we must continue to transform our enterprise to 
remain relevant in this rapidly changing security environment.
    Finally, we must take care of our people and their 
families, as they form the foundation upon which our force is 
built.
    My first year in command has seen us focused on these 
priorities as we transform the way DOD looks at many of the 
national military strategy challenges, in our role as the 
coordinating authority for countering transregional threats, 
and more recently we have also poured significant resources 
into defining our role as the DOD synchronizer for countering 
weapons of mass destruction.
    Both of these substantive roles are additive to the current 
missions, where approximately 8,000 SOF are deployed in over 80 
countries working with international, interagency, and DOD 
partners in support of the geographic combatant commanders' 
priorities.
    This focus is also occurring during a period of 
unprecedented recapitalization of substantive parts of our 
warfighting capability, to include the conversion of our entire 
C-130J--our fleet to J model C-130s, as well as other major 
platforms. We are extremely thankful to the services for 
enabling this transformation to the force, as it sets us on the 
path of success for decades to come.
    We are equally grateful to the support of Congress for 
required resourcing that in turn has produced a SOCOM which is 
relevant to all the current and enduring threats facing the 
Nation. We appreciate the continued oversight and advocacy for 
your United States Special Operations Command.
    I look forward to your questions today as well as the 
planned closed session to follow. Thank you.
    [The prepared statement of General Thomas can be found in 
the Appendix on page 34.]
    Ms. Stefanik. Thank you, General Thomas.
    I ask unanimous consent that nonsubcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had the opportunity to ask questions. 
Is there objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    My first question is for Ms. Whelan. In your written 
statement you note that adversarial powers are increasingly 
turning towards unconventional warfare to pursue their 
objectives, including Russia, China, Iran, and North Korea.
    And as you know, this committee shares this concern, and in 
the NDAA for FY 2016 we included a provision directing the 
Secretary of Defense to coordinate with the interagency and 
submit a strategy to counter these unconventional threats. This 
strategy, which is now almost 2 years late, ultimately can help 
provide a way to ensure that our ends, ways, and means are 
aligned to help counter these unconventional threats.
    So I have two questions on that front. Can you provide an 
update on the strategy and how the Department is coordinating 
with the interagency, and also when Congress can expect to 
receive it?
    Ms. Whelan. Yes, ma'am. Thank you, Congresswoman, for the 
question.
    We have been engaged on the issue of UW, and actually we 
appreciate the language in the NDAA in fiscal year 2016 asking 
us to focus on this issue set. We have been, I think as you 
noted in your opening statement, quite focused on the 
counterterrorism fight for the last 15 years, and UW is an 
emerging area.
    We have as a consequence had to shift resources to focus on 
this and develop capabilities and knowledge bases that had to a 
certain extent atrophied over the years. But also because the 
nature of UW has fundamentally changed because of 21st century 
technologies and techniques, we really in many ways have been 
starting from scratch, and that has been one of the challenges 
that we faced as we dug into this over the last 18 to 24 
months.
    We have been working with our interagency partners, and 
actually, as we have conducted that work with our interagency 
partners, we have begun to realize the extent to which UW in 
the 21st century really is an interagency team sport involving 
multiple parts of the U.S. Government and posing multiple 
threats to the U.S. Government because of the ways that our 
adversaries are using it.
    Studies by USASOC [U.S. Army Special Operations Command], 
and also work that Georgetown University has done on UW, have 
indicated that our adversaries, particularly the more 
sophisticated ones, are actually focusing on the seams between 
our organizational entities and trying to exploit those seams 
and decision-making cycles in order to gain advantage on us in 
the space that essentially is below conventional war, the space 
that we now refer to as the gray zone or hybrid warfare.
    What we are doing and have set in motion is two research 
projects. One, Johns Hopkins University is conducting a study 
on the nature of Russian unconventional warfare in particular. 
We also have engaged CTTSO, our RDT&E [research, development, 
test and evaluation] enterprise, to look at developing 
predictive analytic technologies that will help us identify 
when countries are utilizing unconventional warfare techniques 
at levels essentially below our normal observation thresholds 
so that we can identify these early and be able to use that to 
develop our strategies. Once we complete the Russia UW 
strategy, we will also move on to look at Iran and China.
    Again, this continues to be an evolving threat. So we look 
forward to continuing to work with you as we iterate and try to 
get our heads around what is probably one of the most 
interesting areas in terms of the emerging warfare techniques 
in the 21st century. We do expect to have an interim answer 
with our thoughts to you before the end of June.
    Ms. Stefanik. Thank you, Ms. Whelan.
    My second question is for both you and General Thomas. In 
terms of countering unconventional warfare threats, are we any 
closer to linking all of our tools and capabilities, such as 
conventional, unconventional, economic, cyber, intel, and IO 
[information operations], in an effort to counter adversarial 
threats?
    Ms. Whelan. Thank you, Congresswoman.
    I think you actually hit on the problem, the challenge that 
we are facing right now, is how to achieve that level of 
exquisite integration across multiple components of not only 
the Defense Department, but also the U.S. Government, and also 
to include the issues that bleed into the homeland space where, 
of course, we have a number of different laws and authorities 
that govern how we in the Defense Department operate, let alone 
how DHS [Department of Homeland Security] operates. These are 
some of the very things that we are trying to understand better 
as we look at the tactics and techniques that our adversaries 
are trying to use to exploit us.
    Ms. Stefanik. General Thomas.
    General Thomas. Chairwoman, to really dovetail with the 
first question as it plays to your second one, we are working 
closely with the Department for the overall strategy, but I 
think as importantly and more practically, we are focused on 
the resources and the authorities that would underpin that 
strategy. So we actually are having some pretty substantive 
discussions, specifically as it applies towards countering 
Russian aggression.
    On that end, and to your second question, I do think you 
are seeing an increasingly enhanced and capable blend of 
everything that we bring to the table in terms of military 
capabilities, information operations, influence operations, 
partner capacity, all the way through to DA [direct action], 
although less applicable in some of the UW environments that we 
are currently in, but always kind of the hold card, but also 
cross-cued with everything the interagency can bring and with 
our host nations.
    I do think that you are seeing a trend in the right 
direction, as I think your question hopes we are moving in that 
regard.
    Ms. Stefanik. Thank you.
    I now recognize Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    Again, thanks to our witnesses today for your testimony.
    Ms. Whelan, section 922 of the National Defense 
Authorization Act for fiscal year 2017 focused on solidifying 
the roles and responsibilities of the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict as 
related to the administrative matters of SOCOM.
    Can you please provide an update on how this provision is 
being implemented and how the relationship between ASD(SO/LIC) 
and SOCOM has been shaped by the provision?
    Ms. Whelan. Thank you for the question, Congressman.
    We very much actually appreciate the language in the NDAA 
for fiscal year 2017 in section 922 that further clarified and 
strengthened the role of ASD(SO/LIC) in the oversight and 
management of the Special Operations Command in the context of 
its service-like responsibilities for the joint SOF enterprise. 
This is, we think, a very important step forward in terms of 
enhancing the joint SOF enterprise.
    What we have done so far internally within the Department 
is we have established a tiger team under the direction of 
Deputy Secretary of Defense Work--now, of course, that will 
continue into the future--to fully flesh out the areas in which 
we need to organizationally adjust ourselves within the Office 
of Secretary of Defense and within ASD(SO/LIC) to more 
effectively carry out these responsibilities.
    But in the interim, we have also achieved seats on the 
Deputy's Management Action Group. It is an independent seat for 
ASD(SO/LIC), so that ASD(SO/LIC) can, similar to the other 
service secretaries, represent the service interests of SOCOM. 
We have achieved a similar seat on the Special Access Programs 
Oversight Committee for the same purpose, to represent the 
interests of the joint SOF enterprise. We have also made gains 
in achieving for ASD(SO/LIC) the authorities provided to other 
service secretaries with regard to management of some personnel 
and hiring issues for SOCOM.
    So we are slowly establishing greater precedents for 
ASD(SO/LIC) to act in those service-like secretary functions 
within the Department. We will continue to find ways to work 
more effectively to represent SOCOM in the Department and to 
the Secretary of Defense, and we appreciate, again, the 
language and the clarity that was provided in the terms of the 
role that ASD(SO/LIC) should be providing.
    Mr. Langevin. So ASD(SO/LIC) office has not seen an 
increase in resources for many years. In your opinion, is the 
office of ASD(SO/LIC) properly resourced to carry out the roles 
and responsibilities outlined in section 922?
    Ms. Whelan. Thanks for the question, Congressman.
    So you are correct, we have not seen an increase. In fact, 
we have actually downsized because of requirements for 
downsizing of the Federal workforce, particularly at major 
headquarters organizations.
    However, that is one of the functions of the tiger team, is 
looking at the language in 922, determining what functions the 
ASD(SO/LIC) must provide in order to fully implement that 
language, and then essentially determining a troop-to-task 
requirement and whether or not, how we can meet those in terms 
of the workforce while staying within the requirements for 
downsizing.
    Mr. Langevin. And what is the status of the Special 
Operations Oversight Council?
    Ms. Whelan. The SOPOC, the Special Operations Oversight 
Council, actually meets regularly. It meets at multiple levels, 
a working level, a mid-level, a sort of general officer, one-
star, deputy assistant secretary level, and it also meets at 
the principals level, the assistant secretary level. It has had 
multiple meetings at the working level on a day-to-day basis to 
resolve issues that come up related to SOCOM and management, 
personnel, training issues, and also resourcing issues.
    We have had also a number of meetings at the deputy 
assistant secretary, general flag officer level to take on a 
little bit more thornier issues, including some requirements 
for new authorities. We have had two meetings so far this year 
at the assistant secretary level in which we actually, as I 
mentioned in my remarks, were able to resolve some particularly 
thorny issues in the favor of SOCOM with the services on 
infrastructure and casualty evacuation requirements.
    Mr. Langevin. Okay. Thank you.
    My time has expired, but hopefully, if we do a second 
round, I would want to get to General Thomas and just ask you 
for an update on the countering weapons of mass destruction 
synchronization responsibility that was transferred from 
STRATCOM to SOCOM. Hopefully we can do a second round.
    I yield back.
    Ms. Stefanik. Ms. Cheney.
    Ms. Cheney. Thank you, Madam Chairwoman.
    And thank you very much to both of our witnesses this 
morning.
    General Thomas, I wonder if you could talk a little bit 
more about the extent to which we are seeing a changing 
national security environment, how quickly it's changing, and 
what those demands mean in terms of conflict with near-peer, 
peer-to-peer competitors, give us an assessment of sort of the 
rapidity of that change and how that is affecting your 
fundamental mission and what some of those changing 
requirements might be.
    General Thomas. Congresswoman, as you stated in the 
question, the evolution of change in terms of the threat 
environment is almost at kind of a frantic level in terms of 
number of threats, the transregional aspect that pertains, and 
the varied nature of the threats, so running the gamut from 
hybrid threats all the way through to high-end, arguably 
existential threats.
    The challenge to our force, obviously, is to maintain the 
current effort towards combating violent extremism while we 
transform the force to be prepared for both current and 
emerging threats as I described them here. So we recognize the 
challenge. I think we are changing consistent with the specific 
campaign plans relative to each one of those threats. But it is 
a continuous evolution.
    Ms. Cheney. And as you look at the overall threat 
environment and the sort of initial mission and dealing with 
the counterterrorism challenge, talk a little bit about the 
issue of safe havens, if you would, please, in terms of 
specifically the separate campaign missions that we might have 
and particularly separate missions we might have within 
individual countries. But is there an effort underway to look 
broadly, to say what are we doing globally to deny safe haven 
to ISIS [Islamic State of Iraq and Syria], what are we doing 
globally to deny safe haven to Al Qaeda, and how do the SOF 
assets fit into that?
    General Thomas. Congresswoman, I would be very happy to go 
into much greater detail in the closed session. But to your 
point, I think it is worth reminding ourselves that the reason 
we got involved in Afghanistan in the first place was that we 
were attacked from that sanctuary, where there was a symbiotic 
relationship between Al Qaeda and other forces there that 
enabled them to attack our country.
    Obviously, we want to avoid that situation in the future, 
both in declared areas of hostility and other locations where 
the adversary is inclined to migrate. And they do have a 
tendency to migrate to ungoverned spaces, which drives the need 
for strategies to deal with those locations.
    Again, I would be happy to go into much more detail, 
because we are not just observing the problem, we are 
addressing that tendency.
    Ms. Cheney. Thank you.
    And in terms of the work that we are doing with partner 
nations--and this is also a question for Secretary Whelan--with 
partner forces, how we are working in terms of building 
capacity in those partnership relationships, could you talk a 
little bit about how that is developing and how we can be most 
effective in terms of working with our allied forces in 
partnership capacity training?
    Ms. Whelan. Thanks, Congresswoman, for the question.
    Actually, I think that we have made significant advances in 
the area of capacity building. DOD now, thanks to the new 
legislation, triple three [section 333], has, I think, greater 
flexibility in the use of title 10 resources, which we are now 
also working with State Department to ensure that those 
resources are implemented in a complementary fashion to the 
title 22 FMF [foreign military financing] resources that they 
have.
    So not only do we have the flexibility that we need, but I 
think that we are continuing to develop improved ways of 
managing the programs such that we can assess the effectiveness 
of those programs in terms of achieving our strategic 
objectives. We are continuing to iterate and work with the 
COCOMs [combatant commands] in terms of program design, as well 
as program evaluation at the back end, and then flowing that 
evaluation into adjustments to program design.
    So this is a continual process, but fundamentally capacity 
building is a critical part of our strategy. It is not just 
something that is separate from our strategy that we do 
independently. It is a fundamental element of our strategy, 
because we need partners in many of the areas of the world that 
we work. And so building their capacity to make them 
essentially security providers as opposed to countries that 
absorb security or require security will enhance our security 
in the long run.
    Ms. Cheney. Thank you very much. I will yield back and look 
forward to pursuing both of these topics further in the closed 
session.
    Ms. Stefanik. Mrs. Murphy.
    Mrs. Murphy. Thank you.
    Thank you, General Thomas and Ms. Whelan, for being here 
today and for your testimony.
    As I shared with General Thomas at the Special Ops Caucus 
breakfast this morning, I had the honor of serving in OSD 
[Office of the Secretary of Defense] SO/LIC in the Special Ops/
Countering Terrorism Directorate in the mid-2000s, and I am 
grateful to be engaging on this issue today, and I am looking 
forward to visiting SOCOM headquarters on Friday this week with 
my colleague Congresswoman Kathy Castor.
    Ms. Whelan and General Thomas, as you know, this committee 
is very focused on finding ways that the Department can improve 
its acquisition processes to keep pace with rapid technology 
advancements. I understand that SOCOM uses alternative 
acquisition authorities and exemptions with great success, 
including the regular use of other transactional authority, 
which was granted to the Department as an alternative business 
process to quickly and flexibly fund research and prototype 
development. For example, I understand that SOCOM has set up a 
business and technology incubator called SOFWERX using OTA 
[other transaction authority].
    Can you talk a little bit about what SOFWERX does in 
downtown Tampa and discuss where SOCOM's use of alternative 
business processes has helped field game-changing technology?
    General Thomas. Congresswoman, thanks for the question, and 
I look forward to your visit this Friday, and hopefully you 
will have a chance to visit our facility in Tampa.
    First off, on exquisite acquisition authorities: our 
acquisition director would actually tell you that our 
authorities aren't that much significantly different from the 
services'. The advantage we do have is that he works directly 
for me, and so we have a very direct kind of affiliation, daily 
affiliation, I would offer. He has been extraordinarily 
creative, as has the rest of the organization, in trying to 
create an environment that enables and encourages innovation 
from our problem-solving base through to how we codify it in 
our organization.
    SOFWERX, as you mentioned, is a relatively new endeavor, 
about a year and a half old, which was really established as an 
offsite, specifically and intentionally, off the MacDill 
compound to provide an environment where, as he would describe 
it, we have the opportunity for a collision of acquisition 
types, technologists, and most importantly, operators.
    So as you visit that site, you will find very current 
operational individuals who have the problem-solving ideas and 
kind of ethos that is then married with academia, 
technologists, and acquisition types so that we can rapidly 
consider alternative sourcing, alternative problem-solving 
methods, and really get to the crux of the matter of providing 
enabling technology to our force.
    So, again, I hope you have a chance to see it. I have 
probably done a disservice, but as you have the opportunity to 
visit, I think you will appreciate how nuanced and really 
effective this new process has been.
    Mrs. Murphy. Great. Thank you.
    Do you have any thoughts on how we could encourage the 
Department to more frequently use this rapid acquisition 
authority and tools that have already been provided to DOD on a 
larger scale?
    General Thomas. Congresswoman, there is actually a very 
good news story here. I would normally tell you about our 
interdependence on the services. While they provide us 
platforms that we then transition with our funding authorities 
to create SOF platforms, what you are seeing is a trending in 
the opposite direction, where based on our research and 
development and some of our acquisition activities, we are now 
enabling the services, and even more so, we are enabling some 
of our foreign counterparts.
    So we have a number of memorandums of understanding with 
foreign counterparts that is enabling them to keep pace with us 
as they can afford it and sustain it, and then really driving 
towards interoperability. But that in the past has been thought 
of just a niche SOF approach that now has expanded to our 
services. So there are a few good examples where we are 
returning the favor back to the services for things that we 
have already done the trailblazing research and development, 
and they are inclined to leverage us.
    So I think it is a good news story.
    Mrs. Murphy. Great. And then do you think you can outline 
some of the more difficult advanced technology requirements 
that SOF needs in order to maintain an edge on the battlefield?
    General Thomas. Congresswoman, the one that we discussed 
very briefly today that I am fascinated and arguably stunted as 
a 58-year-old to get my head around, and that is leveraging 
machine learning, deep learning, cognitive computing, that I 
know it, I can see it, you know, I can see it in action in 
terms of corporate applications, I know the requirement in 
terms of how we are dealing, literally swimming in the morass 
of information and intelligence, a mixed bag, but how we sort 
through that in terms of applying business solutions is right--
we are on the cusp of it. And the good news is we are starting 
to marry up the right people with our operators and our problem 
solvers to get at this wicked problem of information management 
and deep data, all the things that go with it that arguably 
corporations have already addressed.
    Mrs. Murphy. Great. Thank you.
    Ms. Stefanik. Mr. Wilson.
    Mr. Wilson. Thank you, Chairwoman Elise Stefanik, for your 
leadership on Emerging Threats.
    And, Madam Secretary, General, thank you for being here 
today. It is especially meaningful to me. My second son is a 
doctor in the Navy. He trained with SEAL Team 2. He has served 
in Baghdad with the Rangers and the SEALs. I was on a 
delegation one time with Congressman Mike Pence of Indiana, and 
while we were there my son gave you the highest backhanded 
compliment. He claimed that the Rangers are good too.
    And so I was so proud of his service and what it means to 
our country. So I know firsthand how significant.
    General, your organization is funded differently from other 
commands, but can you highlight the effects, particularly on 
readiness, of your organization if we do not successfully 
address the issue of sequestration?
    General Thomas. Congressman, first of all, thanks for the 
compliment on the Ranger regiment. I will take that home with 
us.
    To your first point, we are very appreciative for the level 
of funding that we currently enjoy. We entail about 2 percent 
or less of the DOD budget for all the activities that we are 
endeavoring to accomplish. I would also acknowledge that we get 
matching funds, so to speak, from the services that amount to 
about double that budget, again, emphasizing our dependency on 
the services. But a small price, 2 percent, provides you the 
special operations capability that you see manifest everywhere 
in the world these days.
    The short answer for sequestration, the impact on us is 
catastrophic going forward. And I cannot imagine the ripple as 
much, because I don't appreciate the ripple to the services on 
whom I am so dependent. So I can probably itemize it for us 
internally and then I can only speculate how even more tragic 
it would be in terms of our interservice dependence.
    Mr. Wilson. And, General, something I would appreciate, at 
a later date, if you could provide to me what the catastrophic 
effects are so that I can distribute that to our colleagues, 
because they need to know. Sadly, this just hasn't been 
recognized.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Wilson. Additionally, General, can you outline to the 
committee the role that special operations has in Iraq, Syria, 
Afghanistan, other areas of active hostilities? What 
authorities do you have? Are there any concerns about the 
authorities you have? What can we do to help?
    I am particularly concerned about rules of engagement. 
There have been reports where the restrictive rules of 
engagement have actually resulted in mass deaths, particularly 
of SEALs, where there were restrictions that simply went beyond 
common sense.
    I also want to thank you, with Congresswoman Cheney your 
referencing, truly restating Afghanistan. The American people 
have forgotten 9/11, that indeed, this was an attack on the 
American people, mass murder, from a cave in Afghanistan. And, 
sadly, the media doesn't ever connect the dots. And we are in a 
global war on terrorism, and we here support you on that.
    Additionally, I am grateful. I actually had a son serve for 
a year in Afghanistan too. So thank you for referencing the 
significance of Afghanistan.
    So back again to the authorities you have, and then have 
there been any adjustments to the rules of engagement?
    General Thomas. Congressman, I would like to give you a 
much more detailed response to that in closed session, if I 
can, for the specific roles we are playing. I just returned 
from Syria, Afghanistan, Iraq, the entire Middle East where we 
have forces, Lebanon, et cetera. So I can go into great detail.
    I would tell you that I ask that question everywhere I go: 
Do you have the authorities you need to do your job? And I am 
very satisfied that we have affected the authorities under the 
current leadership of the combatant commanders who we are 
supporting to enable our force.
    Anecdotally, I can tell you where there are still 
shortcomings. I just recently was in Helmand, where there was a 
particular nuance to the mission set that I was able to address 
back to that commander. And, again, I can get in more detail 
there. But that is the consistent question our leadership is 
asking our folks every day: Do you have the authorities you 
need? If not, how do we fix that going forward? But, again, if 
I can go into more detail in the closed session, I would 
appreciate it.
    Mr. Wilson. Well, again, I appreciate your leadership so 
much.
    And, Secretary Whelan, as we are looking ahead to fiscal 
year 2018, what cuts do you see that are coming that could 
impact special operations capabilities?
    Ms. Whelan. Thanks for the question, Congressman.
    I think the concerns that we have mostly are in readiness 
across the force. And we have been operating at such a high 
OPTEMPO [operations tempo] for the last decade-plus, and with 
budgets going down, what we have had to do is essentially we 
have had to eat our young, so to speak. I mean, we have 
mortgaged the future in order to facilitate current operations. 
That has impacted readiness and it has also impacted the 
development of force for the future, and as the threats grow, 
this is only going to get worse.
    Mr. Wilson. Thank you very much.
    Ms. Stefanik. Ms. Gabbard.
    Ms. Gabbard. Thank you.
    Good morning. Thank you both for being here.
    Given the unprecedented integration between special 
operations forces and the intelligence community, I am 
wondering if you can, as best you can in this unclassed forum, 
talk about this integration, how it has been going, 
particularly focused on how the Department of Defense conducts 
oversight over this? And at what point is the decision made 
when concerning title 50 activities how and where our special 
operators are used?
    Ms. Whelan. Congresswoman, thanks for the question. I think 
it would be best if we answered that in the closed session in 
terms of the details. It gets us into some very sensitive 
areas.
    Ms. Gabbard. Are you able to talk about the oversight 
portion of this?
    Ms. Whelan. What I can say is that we have a very proactive 
relationship with the commands and then also our counterparts 
in the intelligence community, and there is an active dialogue 
that takes place all the way up to the Secretary of Defense, 
and he engages with his counterpart regularly. So I think I 
would say that we have very effective oversight between the two 
elements of the U.S. Government.
    Ms. Gabbard. Okay. Thanks. Looking forward to continuing 
this in the closed session.
    Given the unique capabilities that you both have talked 
about here that our special forces offer to today's 
environment, the high operational tempo has resulted in some of 
the readiness challenges that you have mentioned as well. Can 
you talk a little bit about how to address that? Is there a 
look to increase the numbers of special forces that we have to 
deal with and address the environment that we are facing, how 
much and how quickly, and how can we get to a place where this 
is sustainable and it is not creating such a stress on our 
troops and their families?
    General Thomas. Congresswoman, I will take a shot at that 
one. Part of the friction, I would offer, is driven by two 
aspects. One is the deployment tempo, in some cases 
unforecasted. For instance, Afghanistan, the expectation was 
that we were going to be finished in 2014. We are now 
throttling into 2017 and beyond. So that unexpected aspect of 
continued deployment where we would otherwise recapitalize 
people and capabilities elsewhere is something that has been a 
challenge to manage, but we are able to do so right now.
    The other part is the transformation piece I mentioned 
earlier. Again, based on some assumptions on when we might be 
able to afford the opportunity to transform some of our 
platforms, particularly our C-130s and others, good assumptions 
were made. They are being challenged by current events. So it 
adds a little extra friction.
    I mention that because I closely monitor the parts of our 
force that are under the most stress. And I can get into them 
specifically in the closed hearing probably better, but there 
are forces that are meeting themselves coming and going in some 
regards, others are in better balance. And we are trying to 
kind of create better balance across the force in its entirety 
going forward, but it is a challenge.
    Ms. Gabbard. Can you talk about the rate of suicide amongst 
your troops and how it compares to the rates that we are seeing 
in other branches of the military, and what the defense health 
services are doing to help address that?
    General Thomas. Congresswoman, we are as, or more, 
challenged than the other services in the Armed Forces. That 
may come as a surprise to you, and I don't want to get into the 
morbid statistics, but we are suffering the same challenges as 
the rest of the services.
    We have doubled and tripled our efforts in terms of 
awareness amongst both our leaders--and truthfully this is 
not--this is leadership as it permeates down to the lowest 
level of our force. We have doubled and tripled our efforts in 
terms of availing our service members to the services that 
otherwise might mitigate the challenges that they are facing. 
But nonetheless, we still suffer from this challenge and we are 
absolutely trying to rectify it. It is a primary focus for us.
    Ms. Gabbard. Thank you. Thanks. Look forward to continuing 
the conversation.
    I yield back.
    Ms. Stefanik. A few members have additional questions 
before we go to the closed classified session.
    My question, General Thomas, broadly, you note that SOCOM 
is preparing for conflicts of the future. What are future 
conflicts you fear the most and how are you prioritizing 
preparation for those conflicts?
    General Thomas. Chairwoman, I don't fear the future 
conflicts as much as I am concerned about our ability to get it 
right, to anticipate the real--the essence of the requirement.
    I think anyone who is paying attention to the news these 
days knows the number and type of threats that would challenge 
DOD to the greatest extent possible. And we are integral to 
every one of those preparatory activities.
    So I think you can extrapolate from that, and I would be 
glad to get into more details in closed session on the 
specifics of what we are preparing to do, but suffice to say, 
we are integral to all the preparatory activities that are 
currently undergoing.
    Ms. Stefanik. And my next question is, it is mentioned in 
the discussion today how heavily dependent SOF is on OCO, 
Overseas Contingency Operations funding, and portions of the 
force remain in very high demand with minimal time to reset. 
U.S. Army Special Operations Forces in particular fall into 
this category.
    What readiness concerns do you have and how are you dealing 
with shortfalls in this area? And do you anticipate that the 
fiscal year 2018 budget request will help you in this area?
    General Thomas. Thanks very much for that question, 
Chairwoman, because it is a point of emphasis for us, and I 
know you are attentive to it.
    Given the current trending for budgeting, SOCOM will be 
leveraged to OCO to the tune of about 30 percent of our total 
obligation authority, 30 percent relative to the services, who 
typically have about a 7 percent reliance an OCO. So we are 
three to four times more dependent on OCO.
    I think you know, because it has been a topic of discussion 
for the last 5 years among my predecessors, that OCO has 
purchased, has acquired us enduring capabilities that we think 
are applicable to future threats, but it is not in the base.
    So therein lies the rub, that if for whatever reason OCO 
was to dissipate without a transition to baseline, SOCOM as it 
is right now is a large facade, and it is mostly manifested in 
one of our most prominent forces. And I can get in more detail 
in the closed session, but it would absolutely undercut their 
ability to continue performing to the level I think the Nation 
requires.
    Ms. Stefanik. Thank you.
    I recognize Mr. Langevin for 5 minutes.
    Mr. Langevin. Thank you, Madam Chair.
    General Thomas, if I could go back to the question I wanted 
to talk about. If you would provide an update on the countering 
weapons of mass destruction synchronization responsibility that 
was transferred from STRATCOM to SOCOM, and in particular, have 
all the necessary resources been transferred from STRATCOM to 
SOCOM to carry out this role?
    General Thomas. Congressman, as you know, we picked up that 
mission in January based on a Presidential decision last year. 
The actual effective transfer was in January. So we have had 
the mission for about 5 months now.
    We held our first semiannual synchronization conference 
with an extraordinary turnout of both interagency and 
international partners, and kind of the enthusiasm was palpable 
in the room in terms of a real community of action vice a 
community of interest.
    We are very enthusiastic about pushing this mission set 
forward. We are in the throes of rewriting the campaign plan as 
well as conducting an assessment that I hope to provide our 
Secretary in about the August timeframe.
    On your very practical question about resourcing, I 
appreciate your attention there. We are in the midst of some 
pretty substantive discussions in terms of the resources 
required. We have already done some internal task organization 
to get at the problem so we didn't sit idly by while we waited 
on resources.
    We did receive some very extraordinary capabilities 
resident in DTRA, the Defense Threat Reduction Agency, that 
were transferred with the mission set to us, so about 50-some 
folks there. And so we are in the process of kind of cobbling 
together our new task organization for this problem. So I am 
confident, I am somewhat confident, that we will get the 
resourcing required to enhance our capability in this critical 
mission set.
    Mr. Langevin. Okay. We look forward to have you keep us 
posted on that.
    And what organization changes at DTRA and SOCOM have 
occurred?
    General Thomas. Congressman, not so much organizational. We 
actually morphed in terms of SOCOM structure. So I put a flag 
officer against this mission to kind of emphasize the 
criticality of it. I was lucky to have a plans officer that I 
could dual hat there. We applied some of our contractor focus. 
More importantly, we immediately adopted part of our 
infrastructure into a fusion cell for our common operating 
picture for this mission set.
    The interaction with DTRA really has been more of the 
nature of exchanged liaison officers and then really a process, 
kind of a binding process in terms of our interoperability with 
our existing SOCOM staff with the DTRA component. So we just 
tightened the lash-up there. We had a preexisting relationship, 
but it is much tighter and more process focused now.
    Mr. Langevin. Are there any priorities and challenges that 
you have identified so far or is it still a work in progress?
    General Thomas. Still a work in progress, Congressman. 
Obviously, quite a few challenges on the WMD front. Again, 
going back to one of the earlier questions, I am concerned 
about how we see this problem in the morass of information that 
is out there, especially in terms of dual-use technology, how 
do we see the flow of innocuous dual-use technology and 
otherwise nefarious technology, and then how it is integrated 
into our whole-of-government and our international approach to 
the problem set.
    So I am concerned going in only because I am not as attuned 
to the set as I probably want to be, but we are endeavoring to 
get there.
    Ms. Stefanik. Mrs. Murphy.
    Mrs. Murphy. This is a follow-up to the last question I had 
for you. You had identified some of the areas that are 
important for you to have to maintain a competitive advantage 
on the battlefield, including what you just discussed, 
artificial intelligence, machine learning, and such.
    How are you staying ahead in the research and development 
in these areas when your budget has been steadily declining 
over the last few fiscal years?
    General Thomas. Congresswoman, I think we have the 
advantage of having an attractive mission set that regardless 
of our--and I don't--I wouldn't say our budget has declined. We 
have flatlined a little bit. But nonetheless we are able to 
track the right kind of innovative business leads, who 
essentially invest in our problem without a great resourcing 
expense at the moment. Again, it depends on where we take it.
    But I am somewhat satisfied that we have the attractiveness 
of our mission set and really the ability to cross-cue what 
they are doing from a business standpoint to where we are 
trying to apply it to military challenges, that there is enough 
of a nexus there to drive a less resource-intensive problem-
solving approach.
    Mrs. Murphy. And then can you talk a little bit about your 
cyber warfare and cyber operations requirements? And also, how 
is SOCOM working with USCYBERCOM [United States Cyber Command]? 
And are there any policy or authority concerns?
    General Thomas. Congresswoman, the bottom line is we have 
an extraordinary level of coordination and collaboration with 
CYBERCOM, so I am very comfortable there. Probably, if I could 
wait to the closed session to get into the details of what we 
are endeavoring to do from a SOCOM standpoint. But clearly we 
have the same challenge that CYBERCOM has in terms of both 
defending a network and then seeking offensive capabilities as 
required for the respective problem sets. And, again, I would 
be glad to talk in the closed session in more detail.
    Mrs. Murphy. Great. And I look forward to the closed 
session.
    I will yield back my time.
    Ms. Stefanik. Thank you to the witnesses for your 
testimony. We will now adjourn and reconvene in about 5 minutes 
in Rayburn 2337.
    [Whereupon, at 11:01 a.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                              May 2, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 2, 2017

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
  


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 2, 2017

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    General Thomas. (U) Over the Future Years Defense Plan (FYDP), the 
combination of Budget Control Act (BCA) caps, our heavy reliance on 
Overseas Contingency Operations (OCO) funding and an extremely high 
OPTEMPO rate bring USSOCOM dangerously close to sinking below a 
reasonable degree of readiness risk. Impacts across USSOCOM can be best 
summarized as 1) reducing and/or eliminating training and exercises 
which result in degraded proficiency and operational readiness, and 2) 
degrading C5ISR support which will negatively impact USSOCOM's ability 
to provide timely and essential mission support to deployed operators 
and sustainers.
    (U) DETAILS: USSOCOM has only examined potential sequester impacts 
at strategic levels. The following list is intended to capture probable 
impacts related to readiness reductions, reduced or eliminated growth 
in selected procurement programs and RDT&E and deferred critical 
facilities recapitalization on USSOCOM Headquarters entities, 
Components, and Sub-Unified Commands:
    (U) AFSOC: Severe cuts to Flying Hour Program (FHP) will degrade 
aircrew proficiency and qualifications--impacting safety, as well as 
slowed growth in Remotely-Piloted Aircraft (RPA), intelligence, 
surveillance and reconnaissance (ISR), and full motion video (FMV) 
processing, exploitation & dissemination (PED).
    (U) MARSOC: Unable to fully resource Military Intelligence Program 
(MIP) in support of intelligence collection (e.g., Joint Threat Warning 
System (JTWS), ATLAS STEALTH, Palantir and Hostile Forces Tagging, 
Tracking and Locating (HFTTL) operations).
    (U) NAVSPECWARCOM and USASOC: Reduced or eliminated training and 
ISR support drives high risk and safety/vulnerability issues to current 
and future deployed operations; results in units requiring additional 
time and resources above what is currently programmed to improve 
current readiness levels.
    (U) CLASSIFIED Operations: Will adversely impact classified 
activities. Details can be provided upon request.
    (U) HQ, USSOCOM and AT&L: Reduced or eliminated exercises and 
training on various platforms and simulators results in shutdown of 
both CONUS and OCONUS sites drives future redeployment and re-fielding 
costs upward. Reduced civilian labor and program management office 
personnel in various headquarters activities that directly support 
classified USSOCOM missions.
    (U) SUB-UNIFIED Commands: Reduced operating supplies/equipment for 
deployed operators and possible delays in establishing new teams at 
deployed locations impede relationships and preparation of the 
environment efforts within the GCC/USSOCOM footprint. A loss in 
sustained field support capabilities elevates risk levels to the force 
and diminishes force protection benefits derived from better 
situational awareness. Reduced, delayed, or deferred critical C4I 
equipment maintenance and lifecycle replacements/upgrades directly 
impact network operations which increase network latency, degrade 
communication capabilities and constrain the ability to successfully 
perform mission essential tasks. Degraded intelligence support impacts 
the ability to provide timely and essential intelligence in support of 
missions, named operations and objectives.
    (U) In addition to the above impacts to USSOCOM equities, SOF 
readiness is directly linked to and dependent upon Service funding 
levels. While an MFP-11 sequester would present challenges, USSOCOM 
remains more concerned with the sequester impact on the Services' 
ability to support SOF. The Services have not yet fully identified 
where they would absorb future budget reductions; therefore, impacts on 
support to SOF cannot be itemized or assessed. Given the historical 
impacts and lack of the Services' ability to absorb reductions, it is 
highly likely that their ability to optimally support SOF will be 
diminished, further straining an already challenged support structure 
and eventually affecting SOF operations and training in an adverse 
manner.   [See page 14.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 2, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. What recommendations would you make to improve how we 
conduct building partnership capacity and security force assistance 
missions, especially when trying to train and equip partner forces? Are 
we investing in developing or acquiring tools and technical 
capabilities that we can share with our partners and allies that are 
both releasable and sustainable from a maintenance and support 
perspective.
    Ms. Whelan. The Department greatly appreciates the expanded and 
consolidated security cooperation (SC) authorities in the new chapter 
16 of title 10, as enacted by the FY17 National Defense Authorization 
Act. The Department shares the committee's strong interest in providing 
capabilities to partners that they can absorb, apply, and sustain to 
support U.S. defense objectives. As we work to implement these new 
authorities, we are implementing a new assessment, monitoring, and 
evaluation (AM&E) policy. This new AM&E effort, along with the new 
requirements for all train and equip programs and activities to include 
a defense institution building focus, human rights training, and 
quarterly reporting requirements, will require the Department to work 
with your committee on future resourcing requests. These new AM&E 
efforts will inform additional Department recommendations for further 
improving our SC missions, which we will share with the committee.
    Ms. Stefanik. What recommendations would you make to improve how we 
conduct building partnership capacity and security force assistance 
missions, especially when trying to train and equip partner forces? Are 
we investing in developing or acquiring tools and technical 
capabilities that we can share with our partners and allies that are 
both releasable and sustainable from a maintenance and support 
perspective.
    General Thomas. (U) 4. USSOCOM recommends a holistic planning 
methodology to building partner capacity (BPC) that is consistent with 
a whole-of-government approach and can be executed in the context of 
other strategic security challenges.
    (U) 4a. Include the Interagency and the country-in-question's U.S. 
Embassy Country Team (Office of Defense Cooperation, Defense Attache 
Office, U.S. Agency for International Development, Political Counselor 
Office, etc.) in the early stages of planning to enhance the Geographic 
Combatant Command (GCC) and Theater Special Operations Command's (TSOC) 
country engagement plans. The Interagency and, particularly, the 
Country Team can provide insights into suitable goals and objectives 
given a particular partner nation's capability, capacity, and interests 
that will inform and influence the direction of long range planning. 
For the long-term success of an activity, we must understand our 
partners' priorities, capabilities, and constraints from the outset. If 
U.S. planners assume our partners' needs and desires are the same as 
our own, our expectations will be mismatched and the outcomes are 
unlikely to support U.S. national objectives in the long term. Early 
inclusion of the Country Team and Interagency not only provides key 
insights to direct planning, but it also permits the TSOC to better 
nest within the GCC's theater campaign plan (TCP). At a transregional 
level, USSOCOM is able to advocate for BPC opportunities and benefits 
that are either unique to development of SOF-peculiar capabilities to 
support our objectives, or capacity that ultimately benefits the U.S. 
in areas of responsibility outside of the partner's specific GCC-
affiliation.
    (U) 4b. Invest more in the development of foreign defense 
institutions. A key element of DOD's 2012 Defense Strategic Guidance is 
building the capacity of partner nations to share the costs and 
responsibilities of global leadership. To implement this goal, the 
Under Secretary for Policy uses several security cooperation (SC) and 
security assistance (SA) programs to help partner countries build the 
capacity of their defense ministries. In addition and crucially 
important is that GCCs and services engage in defense institution 
building (DIB) in response to the SC focus areas in the Guidance for 
Employment of the Force. DIB includes activities that develop 
accountable, effective, and efficient defense institutions. Since these 
institutions will ultimately manage and sustain the capabilities we are 
helping to build, it is important to the success of our efforts that 
the foreign defense institutions with which we engage be accountable, 
effective, and efficient. USSOCOM relies on OSD, DSCA, the Services and 
GCCs to provide defense institution building measures to complement 
operational level SOF BPC activities.
    (U) 4c. Utilize prior and routine assessments of ongoing SC 
activities to ensure progress toward goals and objectives is being 
realized. While SC remains an important instrument of the U.S. 
government and DOD, one key challenge for policymakers and GCCs is 
gaining a more complex understanding of the real value of those 
activities geared toward BPC. Assessments of BPC activities have become 
increasingly important, especially given the current fiscal climate and 
budgetary limitations, to ensure these activities are meeting their 
objectives. USSOF assessments have informed our decision making for the 
types of authorities and funding we have requested from Congress.
    Ms. Stefanik. SOCOM has a lot of missions it is responsible for, 
and has had several new ones added to it. Are there any of those 
missions that should go away or be reassigned?
    General Thomas. (U) 5. There are no missions that should go away or 
be reassigned. Missions assigned to USSOCOM are appropriate and 
commensurate with our skill set. The only new mission assigned to 
USSOCOM is the CWMD mission, which was directed by the President and 
Secretary of Defense and the mission transfer has been comprehensively 
coordinated with stakeholders from U.S. Strategic Command, the Joint 
Staff, Office of Secretary of Defense and our interagency partners, to 
include required transfer of resources. We have a process that 
prioritizes the many requirements that we receive for SOF capabilities 
in support of GCC requirements. I provide my best military advice to 
the SECDEF on which requirements I can meet, based on capacity, through 
the Global Force Management and Global Synchronization of SOF 
processes.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Are there policy concerns with adding responsibility of 
Global synchronization of all DOD activities to counter the 
proliferation of weapons of mass destruction (CWMD) to a force that 
already bears unprecedented global demand of its resources?
    With this added responsibility, are you aware if there are moves at 
DOD to provide additional authorities to SOCOM to counter the five 
current and enduring threats of violent extremist organizations (VEOs), 
Russia, Iran, North Korea and China?
    Ms. Whelan. There are no policy concerns with adding CWMD 
responsibilities to USSOCOM. The Department continually reviews our 
authorities to determine if there are gaps. We recently completed an 
authority review based on the President's request to update the defeat 
ISIS strategy. We are working with the Office of Management and Budget 
to ensure the Department's authorities are matched to current 
strategies.
    Mr. Franks. Considering Russia's investment and continued increase 
in their own special forces totaling approximately 62,000 and likely 
growing, can we sustain our continued dependency on our SOF without 
further investment in personnel?
    General Thomas. (U) 1. Under current mission prioritization, U.S. 
special operations forces (SOF) personnel growth is not required to 
off-set perceived numerical superiority by Russian Special Forces. 
Further, countering Russian SOF activities is not a U.S. unilateral 
action. USSOF, combined and synchronized with NATO allied and other 
partner nation SOF, with the global reach and complementary 
capabilities these alliances and partnerships provide, far outweigh any 
perceived numerical advantage. Any increase in investment in USSOF 
should focus upon force modernization and enabler support growth and 
technical evolution. Steady-state activities below the level of 
conflict represent the greatest SOF challenge against peer competitors 
and continuing to invest in advancing those capabilities is the best 
way to continue to outpace competitors.
    Mr. Franks. How should we counter the degradation of skill sets and 
training which ensure the dominance of our SOF community with their 
current OPTEMPO without decreasing deployments and allowing for 
necessary time to maintain critical proficiency in language skills, 
cultural training, and professional development?
    Typically Special Forces are inserted in order to minimize the U.S. 
footprint in a given area--only to end up increasing U.S. military 
presence in that area; would it make sense to reassess the conditions 
which dictate SOF requirements and the value of adding a larger more 
broadly specialized element, as opposed to inserting SOF?
    General Thomas. (U) 2a. Although current demand for SOF is high and 
sustained OPTEMPO creates significant challenges to our force, USSOCOM 
has not observed a degradation of skill sets or training that puts our 
dominance on the current battlefield at risk. Attaining and maintaining 
proficiency across the SOF enterprise in language, regional expertise 
and culture (LREC), professional development, and advanced SOF skills 
takes dedicated dwell time focused on training and remains a priority 
for USSOCOM. We continue to deliver highly skilled, proficient, and 
capable SOF ready to meet the demands of Geographic Combatant Commands 
(GCC). USSOCOM continuously explores and expands ways of reducing 
personnel tempo (PERSTEMPO) while maximizing training and professional 
development opportunities. Use and expansion of modeling and simulation 
and live, virtual, and constructive environments (LVC) ensures we 
continue to provide trained, educated, and combat ready SOF while 
reducing the impacts of high OPTEMPO. [J7-T&E]
    (U) 2b. USSOCOM and its Service Components manage OPTEMPO impacts 
through adherence to established force generation models and force 
element sustainable capacities. Limiting deployments in this manner 
provides units, generally speaking, between 12 and 18 months to reset 
and train to full spectrum readiness. This has not always been the 
case, but has received renewed emphasis and is closely monitored. [J32]
    (U) 2c. Combatant Command requirements for SOF are scrutinized at 
the Theater Special Operations Commands prior to submission to the 
Combatant Commands and at USSOCOM against Special Operations Forces 
Mission Criteria, the first being: Is it an appropriate mission or 
activity for Special Operations. While USSOCOM cannot dictate what 
requirements are submitted, we have emphasized that the Theater Special 
Operations Commands should request conventional forces and consider the 
potential for partner nation sourcing. On multiple occasions, USSOCOM 
has requested that the Joint Staff consider conventional force sourcing 
of requests for SOF. [J32]

                                  <all>
</pre></body></html>
